19-676
JOSEPH A. ZADEH & JANE DOE,
Petitioners,
v.
MARI ROBINSON, SHARON PEASE & KARA KIRBY,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that BRIEF OF CROSSIDEOLOGICAL GROUPS DEDICATED TO ENSURING OFFICIAL
ACCOUNTABILITY, RESTORING THE PUBLIC’S TRUST IN LAW
ENFORCEMENT, AND PROMOTING THE RULE OF LAW AS AMICI
CURIAE IN SUPPORT OF PETITIONERS contains 5,963 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

/s/ Jay R. Schweikert
Counsel of Record

